Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant  
to the Burlington County, New Jersey Prosecutor's Office 
GR-70-02-001
February 20, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services (COPS) to the Burlington County, New Jersey Prosecutor's Office (BCPO) to coordinate grant funds use by a Consortium of county law enforcement agencies.  The purpose of the grant is to enhance community policing.  The Consortium was awarded a total of $2,717,746 for the purchase of equipment and technology that will allow Consortium members to redeploy the equivalent of 156 existing full-time police officers from administrative duties to community policing.

We found the Consortium to be in material non-compliance with COPS's grant requirements.  We reviewed the Consortium's compliance with five essential grant conditions and except for retention planning and the source of local matching funds, we found weaknesses in each of the other areas we tested:  reimbursement requests, redeployment tracking, and community policing activities.  As a result of the deficiencies identified below, we question $2,717,746 in grant funds received. 1

The Consortium had not made adequate progress in implementing its county-wide integrated law enforcement system, and as a result, had not redeployed police officers into community policing activities.  

	The Consortium had not developed a method for tracking redeployment for when the system is implemented.

	The Consortium did not enhance community policing activities as a result of the Making Officer Redeployment Effective (MORE) 95 grant because it had not fully implemented the grant project and redeployed officers.

	The Consortium received federal reimbursements that exceeded allowable total program costs.

Because of the deficiencies identified, we question the full $2,717,746 in reimbursements received by the Consortium. 

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 





Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for the definitions of questioned costs.